      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




August 30, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicaid & Medicare Services


FROM:         /Lori S. Pilcher/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Audit of Oregon’s Medicaid Management Information System Expenditures for
              the Period October 1, 2007, Through September 30, 2009 (A-09-10-02017)


Attached, for your information, is an advance copy of our final report on Oregon’s Medicaid
Management Information System expenditures for the period October 1, 2007, through
September 30, 2009. We will issue this report to the Oregon Health Authority within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-02017.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



August 31, 2011

Report Number: A-09-10-02017

Bruce Goldberg, M.D.
Director
Oregon Health Authority
500 Summer Street, NE E-20
Salem, OR 97301

Dear Dr. Goldberg:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Oregon’s Medicaid Management Information
System Expenditures for the Period October 1, 2007, Through September 30, 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Gerald Illies, Audit Manager, at (206) 615-2252 or through email at
Gerald.Illies@oig.hhs.gov. Please refer to report number A-09-10-02017 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Bruce Goldberg, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  AUDIT OF OREGON’S MEDICAID
   MANAGEMENT INFORMATION
 SYSTEM EXPENDITURES FOR THE
PERIOD OCTOBER 1, 2007, THROUGH
      SEPTEMBER 30, 2009




                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-09-10-02017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

A Medicaid Management Information System (MMIS) is a system of software and hardware
used to process Medicaid claims and manage information about Medicaid beneficiaries and
services. An MMIS may be operated by a State agency and/or a fiscal agent, which is a private
contractor hired by the State.

Section 1903(a)(3)(A)(i) of the Social Security Act (the Act) authorizes Federal reimbursement
at an enhanced rate of 90 percent (90-percent rate) for the design, development, or installation of
an MMIS. Section 1903(a)(3)(B) of the Act authorizes Federal reimbursement at an enhanced
rate of 75 percent (75-percent rate) for the operation of an MMIS. Section 1903(a)(7) of the Act
authorizes Federal reimbursement at a standard rate of 50 percent (50-percent rate) for Medicaid
administrative expenditures. The Centers for Medicare & Medicaid Services (CMS) State
Medicaid Manual (the Manual), part 11, identifies the specific types of MMIS expenditures that
are allowable for Federal reimbursement and the reimbursement rates that apply.

In Oregon, the Department of Human Services (State agency) administers the Medicaid program.
During our audit period (October 1, 2007, through September 30, 2009), the State agency used
contractors to assist with the administration of the Medicaid program, operate and maintain its
MMIS, and develop a replacement MMIS. The State agency began using the replacement MMIS
in December 2008.

For the audit period, the State agency claimed at enhanced Federal reimbursement rates
expenditures totaling $44,209,420 ($37,971,070 Federal share) for the design, development,
installation, and operation of its MMIS. Of this amount, we reviewed $30,956,274
($27,103,971 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency claimed enhanced Federal Medicaid
reimbursement for MMIS expenditures in compliance with Federal requirements.

SUMMARY OF FINDINGS

The State agency did not always claim enhanced Federal Medicaid reimbursement for MMIS
expenditures in compliance with Federal requirements. Of the $30,956,274 that we reviewed,
$27,430,479 was claimed correctly. For the remaining $3,525,795, we determined the following:

   •   The State agency claimed $655,322 for employee salaries and fringe benefits and
       contractor and postage expenditures at incorrect Federal reimbursement rates. We
       determined that the State agency was overpaid $154,729, the difference between what the
       State agency claimed at the 90-percent and 75-percent rates and what it should have
       claimed at the 75-percent and 50-percent rates, respectively.




                                                 i
   •   The State agency claimed $547,997 for (1) contractor expenditures that were incurred
       under a contract extension for which the State agency did not obtain CMS’s approval and
       (2) salary and fringe benefits for a State agency employee who did not perform Medicaid
       activities. The Federal share of the unallowable expenditures was $410,998.

   •   The State agency claimed $2,322,476 for contractor expenditures and employee salaries
       and fringe benefits that, based on the activities performed, included some amounts that
       were not claimed at correct reimbursement rates or were not allowable for Medicaid
       reimbursement. Because the State agency’s records for the $2,322,476 claimed did not
       identify the amount of time spent on allowable activities eligible for reimbursement at
       different reimbursement rates or on unallowable activities, we have set aside the Federal
       share of $1,741,857 for resolution by CMS and the State agency.

The State agency did not properly claim these expenditures for Federal reimbursement because it
did not have adequate internal controls to ensure that all of its MMIS expenditures were claimed
at the correct reimbursement rates and were allowable for Medicaid reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $565,727 to the Federal Government for expenditures claimed at incorrect
       reimbursement rates ($154,729 Federal share) and for expenditures not allowable for
       Medicaid reimbursement ($410,998 Federal share),

   •   work with CMS to determine which portions of the $1,741,857 that we set aside were
       calculated using correct reimbursement rates and were for allowable Medicaid activities
       and refund to the Federal Government the amounts that were overpaid, and

   •   strengthen internal controls to ensure that its MMIS expenditures are claimed at correct
       reimbursement rates and are allowable for Medicaid reimbursement.

STATE AGENCY COMMENTS

In written comments on our draft report (included in their entirety as the Appendix), the State
agency partially concurred with our first recommendation. The State agency concurred with our
second and third recommendations and provided information on actions that it planned to take to
address them.

Regarding our first recommendation, the State agency disagreed with our finding related to
contractor expenditures that were incurred under a contract extension. The State agency said that
it was not required to obtain CMS’s approval for the extension because the expenditures were
incurred as MMIS operations and maintenance, and it had not requested enhanced
reimbursement. The State agency said that it agreed that, in the future, it should work more
closely with CMS when extending contracts over $100,000 to ensure that CMS is aware of
contract changes.


                                               ii
OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency claimed contractor expenditures under a contract extension at the 75-percent
rate without obtaining CMS’s approval. Section 11275 of the Manual requires the State agency
to obtain CMS’s approval for claiming Federal reimbursement at the 75-percent rate for system
maintenance expenditures if the thresholds in 45 CFR § 95.611 are exceeded. Section 11110 J.
of the Manual states that Federal reimbursement of “… 75 percent … is provided as enhanced
funding for MMIS expenditures ….”




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicaid Program ....................................................................................................1
              Medicaid Management Information System ............................................................1
              Oregon Medicaid Management Information System ...............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

          EXPENDITURES CLAIMED AT INCORRECT REIMBURSEMENT RATES..............3
               Federal Requirements Related to Reimbursement Rate Categories for
                Medicaid Management Information System Expenditures...................................4
               Salaries and Fringe Benefits ....................................................................................4
               Contractor Expenditures for Operating a Help Desk ...............................................5
               Postage Expenditures ...............................................................................................5

          EXPENDITURES NOT ALLOWABLE FOR MEDICAID REIMBURSEMENT............6
               Federal Requirements ..............................................................................................6
               Contractor Expenditures Under a Contract Extension .............................................6
               Salary and Fringe Benefits .......................................................................................7

          EXPENDITURES SET ASIDE ...........................................................................................7
               Federal Requirements ..............................................................................................7
               Contractor Expenditures for System Operations .....................................................8
               Salaries and Fringe Benefits ....................................................................................8

          RECOMMENDATIONS .....................................................................................................8

          STATE AGENCY COMMENTS ..........................................................................................9

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................................9

APPENDIX

          DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                                     iv
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid Management Information System

Section 1903(r)(1) of the Act states that, to receive Federal funding for use of automated data
systems in administration of the Medicaid program, the State must have a mechanized claims
processing and information retrieval system that meets the requirements of the Act. The CMS
State Medicaid Manual (the Manual), part 11, section 11110(O), states that, for Medicaid
purposes, the mechanized system is the Medicaid Management Information System (MMIS). An
MMIS is a system of software and hardware used to process Medicaid claims and manage
information about Medicaid beneficiaries and services. Section 11310 of the Manual states that
an MMIS consists of six core subsystems: Recipient, Provider, Claims Processing, Reference
File, Surveillance and Utilization Review, and Management and Administrative Reporting. An
MMIS may be operated by a State agency and/or a fiscal agent, which is a private contractor
hired by the State.

Section 1903(a)(3)(A)(i) of the Act authorizes Federal reimbursement at an enhanced rate of
90 percent (90-percent rate) for the design, development, or installation of an MMIS.
Section 1903(a)(3)(B) of the Act authorizes Federal reimbursement at an enhanced rate of
75 percent (75-percent rate) for the operation of an MMIS. Section 1903(a)(7) of the Act
authorizes Federal reimbursement at a standard rate of 50 percent (50-percent rate) for Medicaid
administrative expenditures. Part 11 of the Manual identifies the specific types of MMIS
expenditures that are allowable for Federal reimbursement and the reimbursement rates that
apply.

States claim MMIS expenditures on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64 (CMS-64).

Oregon Medicaid Management Information System

In Oregon, the Department of Human Services (State agency) administers the Medicaid
program. 1 During our audit period (October 1, 2007, through September 30, 2009), the State
agency used contractors to assist with the administration of the Medicaid program, operate and
1
    Effective July 1, 2011, the Oregon Health Authority is responsible for administering the Medicaid program.


                                                           1
maintain its MMIS, and develop a replacement MMIS. The State agency began using the
replacement MMIS in December 2008. In addition to the MMIS’s core subsystems, the State
agency operated auxiliary subsystems that interfaced with the MMIS to obtain information
necessary for claims processing.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed enhanced Federal Medicaid
reimbursement for MMIS expenditures in compliance with Federal requirements.

Scope

For the 2-year period October 1, 2007, through September 30, 2009, the State agency claimed at
enhanced Federal reimbursement rates expenditures totaling $44,209,420 ($37,971,070 Federal
share) for the design, development, installation, and operation of its MMIS. Of this amount, we
reviewed $30,956,274 ($27,103,971 Federal share).

We did not perform a detailed review of the State agency’s internal controls. We limited our
review to obtaining an understanding of the internal controls that the State agency used to
accumulate and claim MMIS expenditures for Federal reimbursement.

We conducted our audit from March 2010 to February 2011 and performed fieldwork at the State
agency’s office in Salem, Oregon.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed State agency officials to gain an understanding of the State agency’s internal
        controls related to accumulating and claiming MMIS expenditures for Federal
        reimbursement;

   •    reviewed the State agency’s contract documents related to the design, development,
        installation, and operation and maintenance of the State agency’s previously approved
        MMIS and replacement MMIS;

   •    reconciled to supporting schedules the State agency’s MMIS expenditures claimed on the
        CMS-64s for the audit period;

   •    reviewed a judgmental sample of the State agency’s MMIS expenditures claimed on the
        CMS-64s and traced the expenditures to invoices, State payroll records, and other
        supporting documentation;


                                                 2
   •   interviewed State agency employees to obtain an understanding of their job
       responsibilities during the audit period; and

   •   consulted with CMS officials on the allowability of the expenditures reviewed.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always claim enhanced Federal Medicaid reimbursement for MMIS
expenditures in compliance with Federal requirements. Of the $30,956,274 that we reviewed,
$27,430,479 was claimed correctly. For the remaining $3,525,795, we determined the following:

   •   The State agency claimed $655,322 for employee salaries and fringe benefits and
       contractor and postage expenditures at incorrect Federal reimbursement rates. We
       determined that the State agency was overpaid $154,729, the difference between what the
       State agency claimed at the 90-percent and 75-percent rates and what it should have
       claimed at the 75-percent and 50-percent rates, respectively.

   •   The State agency claimed $547,997 for (1) contractor expenditures that were incurred
       under a contract extension for which the State agency did not obtain CMS’s approval and
       (2) salary and fringe benefits for a State agency employee who did not perform Medicaid
       activities. The Federal share of the unallowable expenditures was $410,998.

   •   The State agency claimed $2,322,476 for contractor expenditures and employee salaries
       and fringe benefits that, based on the activities performed, included some amounts that
       were not claimed at correct reimbursement rates or were not allowable for Medicaid
       reimbursement. Because the State agency’s records for the $2,322,476 claimed did not
       identify the amount of time spent on allowable activities eligible for reimbursement at
       different reimbursement rates or on unallowable activities, we have set aside the Federal
       share of $1,741,857 for resolution by CMS and the State agency.

The State agency did not properly claim these expenditures for Federal reimbursement because it
did not have adequate internal controls to ensure that all of its MMIS expenditures were claimed
at correct reimbursement rates and were allowable for Medicaid reimbursement.

EXPENDITURES CLAIMED AT INCORRECT REIMBURSEMENT RATES

The State agency claimed $655,322 for employee salaries and fringe benefits and contractor and
postage expenditures at incorrect Federal reimbursement rates, resulting in an overpayment of
$154,729.



                                               3
Federal Requirements Related to Reimbursement Rate Categories for
Medicaid Management Information System Expenditures

Section 1903(a)(3)(A)(i) of the Act authorizes Federal reimbursement at the 90-percent rate for
the design, development, or installation of an MMIS. Similarly, section 11276.2 of the Manual
states that for MMIS expenditures to be allowable at the 90-percent rate, they must be “directly
attributable to the Medicaid program for the design, development, installation, and enhancement
of [the MMIS].”

Section 1903(a)(3)(B) of the Act authorizes Federal reimbursement at the 75-percent rate for the
operation of an MMIS, whether such a system is operated directly by the State or by another
person under a contract with the State. “Operation” is defined in 45 CFR § 95.605 as the
automated processing of data used in administering the Medicaid program and includes the use
of supplies, software, hardware, and personnel directly associated with the functioning of the
MMIS. Section 11276.3(A) of the Manual states that for MMIS expenditures to be allowable at
the 75-percent rate, the expenditures must be “directly attributable to the Medicaid program for
ongoing automated processing of claims, payments, and reports.”

Section 1903(a)(7) of the Act authorizes the 50-percent rate for Medicaid administrative
expenditures that are necessary for proper and efficient administration of the State plan.

Salaries and Fringe Benefits

The State agency claimed $452,979 for employee salaries and fringe benefits at incorrect Federal
reimbursement rates, resulting in an overpayment of $104,143.

Federal Requirements Related to Allowability of Program Management,
Eligibility Determination System, and Training Costs at Enhanced Rates

Section 11276.7(A) of the Manual states: “Although required to operate a Medicaid program, …
[program management] is not reimbursable at the [75-percent] rate unless directly related to
claims processing or information retrieval. … [D]evelopment and issuance of overall policy is
excluded.” Pursuant to 42 CFR § 433.112(c), eligibility determination systems are not eligible
for enhanced funding at the 75-percent or 90-percent rate. Section 11280.2 of the Manual states
that Federal reimbursement at the 50-percent rate is available for expenditures associated with
the operation of an eligibility determination system.

Pursuant to 42 CFR § 432.50(a) and (b)(2), Federal reimbursement is available at the 75-percent
rate for training expenditures “[f]or personnel engaged directly in the operation of [the MMIS].”
Section 11276.11(B)(2) of the Manual specifies that the training of personnel directly engaged in
the operation of an MMIS is reimbursed at the 75-percent rate.

Salaries and Fringe Benefits Incorrectly Claimed at 75-Percent Rate

The State agency claimed at the 75-percent rate $361,964 for salaries and fringe benefits of
10 employees whose functions (1) included program management activities that were not



                                                 4
directly related to claims processing or information retrieval; (2) related to operation of an
eligibility determination system; or (3) were not directly attributable to the ongoing automated
processing of claims, payments, and reports. 2 For example, the State agency claimed two
employees’ salaries and fringe benefits as operation of the MMIS, even though their duties were
to file paper claims, which was not directly attributable to the automated processing of claims or
payments. The State agency claimed the expenditures for the 10 employees at the 75-percent
rate rather than the 50-percent rate, resulting in an overpayment of $90,491.

Salary and Fringe Benefits Incorrectly Claimed at 90-Percent Rate

The State agency claimed at the 90-percent rate rather than the 75-percent rate $91,015 for the
salary and fringe benefits of one employee who oversaw the development of and facilitated
training for employees engaged in the operation of the MMIS, resulting in an overpayment of
$13,652.

Contractor Expenditures for Operating a Help Desk

Federal Requirements Related to Allowability of Costs for Prior Authorization of Services at
Enhanced Rates

Section 11276.7(B) of the Manual states: “… [P]rior authorization of a [medical assistance]
service … before the service is delivered is not allowable [at the 75-percent rate]. Such a
decision is ... not directly related to the [MMIS].”

Contractor Expenditures Incorrectly Claimed at 75-Percent Rate

The State agency claimed at the 75-percent rate $184,387 for contractor expenditures that were
not directly attributable to the ongoing automated processing of claims, payments, and reports or
were related to prior authorization of services. The State agency contracted with First Health
Services Corporation to administer its pharmaceutical services, including operating a help desk
to provide drug information and advice to pharmacists at the point of sale (which was not
directly attributable to the Medicaid program for the operation of an MMIS) and to approve or
deny prior authorization requests. The State agency claimed the expenditures at the 75-percent
rate rather than the 50-percent rate, resulting in an overpayment of $46,097.

Postage Expenditures

Federal Requirements Related to Allowability of Postage Costs at Enhanced Rates

Section 11276.8 of the Manual states: “The postage necessary to mail various products
stemming from the operation of an MMIS, e.g., checks, remittance advices, is not considered
part of the operation of an MMIS as defined in §11110. Consequently, all postage costs
associated with the operation of an MMIS are matched at the 50 percent [reimbursement] rate.”


2
 The $361,964 claimed does not include all of the salaries and fringe benefits paid to these employees during our
audit period because some of these employees performed other activities that were claimed at the correct rates.


                                                         5
Postage Expenditures Incorrectly Claimed at 75-Percent Rate

The State agency claimed postage expenditures of $17,956 at the 75-percent rate rather than the
50-percent rate, resulting in an overpayment of $4,489. The expenditures included metered
postage, postage stamps, rental of post office boxes, and commercial carrier delivery fees.

EXPENDITURES NOT ALLOWABLE FOR MEDICAID REIMBURSEMENT

The State agency claimed at the 75-percent rate $547,997 for (1) contractor expenditures that
were incurred under a contract extension for which the State agency did not obtain CMS’s
approval and (2) salary and fringe benefit expenditures for a State agency employee who did not
perform Medicaid activities. These expenditures were not allowable for Medicaid
reimbursement, resulting in an overpayment of $410,998.

Federal Requirements

Pursuant to Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, Attachment A, § C.1.a, to be allowable under Federal
awards, costs must be necessary and reasonable for proper and efficient performance and
administration of Federal awards. Pursuant to OMB Circular A-87, Attachment A, § C.1.b., to
be allowable under Federal awards, costs must be allocable to Federal awards under the
provisions of this Circular.

Pursuant to 45 CFR § 95.611(c)(2)(ii)(A), the State agency must obtain written approval from
CMS when a project’s cost is increased by more than $100,000, if the project is a request for
enhanced Federal reimbursement. 3 Further, 45 CFR § 95.611(c)(2)(ii) requires the State agency
to submit to CMS within 60 days of a project’s change an Advanced Planning Document Update,
requesting approval for additional funding for the project.

Contractor Expenditures Under a Contract Extension

Contrary to 45 CFR § 95.611(c)(2)(ii)(A), the State agency claimed at the 75-percent rate
$527,485 for contractor expenditures under a contract extension without obtaining CMS’s
approval through an Advanced Planning Document Update. Before the audit period, the State
agency contracted with ACS State Healthcare, LLC (ACS), to develop one of the MMIS’s core
subsystems, the Surveillance and Utilization Review system, and to maintain the system for
3 years thereafter. During the audit period, the State agency extended its contract with ACS for
an additional 1-year period for maintenance of the system, which resulted in a cost increase of
more than $100,000. Because the State agency did not obtain CMS’s approval for the contract
extension, the contractor expenditures were not allowable for Federal reimbursement, resulting
in an overpayment of $395,614.




3
    This amount was increased to $300,000 in October 2010 (75 Fed. Reg. 66338, 66339 (Oct. 28, 2010)).


                                                         6
Salary and Fringe Benefits

The State agency claimed at the 75-percent rate $20,512 for the salary and fringe benefits of one
employee who did not perform Medicaid activities. Before the audit period, the employee was
transferred from a position in which he performed MMIS activities to a position in which he did
not perform any activities related to the MMIS or Medicaid. However, the State agency did not
update the payroll accounting code for the employee and continued to claim his salary and fringe
benefits at the 75-percent rate until the State discovered the error during the audit period.
Because the employee did not perform activities related to Medicaid, the employee’s salary and
fringe benefits were not allowable for Medicaid reimbursement, resulting in an overpayment of
$15,384.

EXPENDITURES SET ASIDE

The State agency claimed $2,322,476 for contractor expenditures and employee salaries and
fringe benefits that, based on the activities performed, included some amounts that were not
claimed at correct reimbursement rates or were not allowable for Medicaid reimbursement.
Because the State agency’s records were not sufficient to enable us to determine the amount
overpaid, we have set aside the Federal share of $1,741,857 for resolution by CMS and the State
agency.

Federal Requirements

OMB Circular A-87, Attachment A, § C.3.a., states: “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.” Pursuant to OMB Circular A-87, Attachment A,
§ C.1.b., to be allowable under Federal awards, costs must be allocable to Federal awards under
the provisions of this Circular.

Pursuant to 42 CFR § 433.117(d), Federal reimbursement is available at the 75-percent rate for
the operation of a CMS-approved MMIS that is being replaced until the replacement system is in
operation and approved. Section 11269 of the Manual states that the 50-percent rate is available
for the operation of a replacement MMIS until CMS approves the replacement system, at which
time “increased [Federal reimbursement] will be available at 75 percent retroactively to the date
[CMS] determined the replacement system meet[s] all conditions of approval.”

Section 11276.7(B) of the Manual states: “… [P]rior authorization of a [medical assistance]
service … before the service is delivered is not allowable [at the 75-percent rate]. Such a
decision is ... not directly related to the [MMIS].”

Section 11280.2 of the Manual states that Federal reimbursement at the 50-percent rate is
available for expenditures associated with the operation of an eligibility determination system.

Section 11276.3(A) of the Manual states that for MMIS expenditures to be allowable at the
75-percent rate, the expenditures must be “directly attributable to the Medicaid program for
ongoing automated processing of claims, payments, and reports.”



                                                 7
Contractor Expenditures for System Operations

The State agency did not claim at correct reimbursement rates $1,228,367 of contractor
expenditures related to the operation of (1) auxiliary subsystems of the previously approved
MMIS and (2) the replacement MMIS. Instead, the State agency claimed all of these
expenditures at the 75-percent rate, even though CMS had not approved the replacement MMIS.

The State agency contracted with Area Agencies on Aging (AAA) to administer the Medicaid
program at the local level, which included operating the MMIS and its auxiliary subsystems.
Because the State agency’s records did not identify the amount of time that the AAAs spent
operating the auxiliary subsystems of the previously approved MMIS and the amount of time
spent operating the replacement MMIS, we have set aside $921,275 (Federal share) for
resolution by CMS and the State agency.

Salaries and Fringe Benefits

The State agency did not claim $1,094,109 of employee salaries and fringe benefits at the correct
reimbursement rates. Instead, the State agency claimed all of the expenditures at the 75-percent
rate. In addition to performing activities that were allowable for reimbursement at the 75-percent
rate, these employees performed activities that were not allowable for reimbursement at the
75-percent rate or did not relate to the Medicaid program.

The employees spent time performing activities that were eligible for reimbursement at the
75-percent rate pursuant to section 11276.11 of the Manual, such as using the MMIS to process
Medicaid claims or enroll clients in the State’s Medicaid managed care program. However,
these employees also spent time performing activities that were eligible for reimbursement only
at the 50-percent rate pursuant to sections 11276.7(B), 11280.2, and 11276.3(A) of the Manual,
such as processing prior authorization of services, operating an eligibility determination system,
and performing activities that were not directly attributable to the Medicaid program for the
ongoing automated processing of claims, payments, and reports. Some of the employees also
spent time performing non-Medicaid activities that were unallowable pursuant to OMB Circular
A-87, Attachment A, § C.1.b.

Because the State agency’s records did not identify the amount of time that the employees spent
on allowable activities eligible for reimbursement at different reimbursement rates or on
unallowable activities, we have set aside $820,582 (Federal share) for resolution by CMS and the
State agency.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $565,727 to the Federal Government for expenditures claimed at incorrect
       reimbursement rates ($154,729 Federal share) and for expenditures not allowable for
       Medicaid reimbursement ($410,998 Federal share),




                                                 8
   •   work with CMS to determine which portions of the $1,741,857 that we set aside were
       calculated using correct reimbursement rates and were for allowable Medicaid activities
       and refund to the Federal Government the amounts that were overpaid, and

   •   strengthen internal controls to ensure that its MMIS expenditures are claimed at correct
       reimbursement rates and are allowable for Medicaid reimbursement.

STATE AGENCY COMMENTS

In written comments on our draft report (included in their entirety as the Appendix), the State
agency partially concurred with our first recommendation. The State agency concurred with our
second and third recommendations and provided information on actions that it planned to take to
address them.

Regarding our first recommendation, the State agency disagreed with our finding related to
contractor expenditures that were incurred under a contract extension. The State agency said that
it was not required to obtain CMS’s approval for the extension because the expenditures were
incurred as MMIS operations and maintenance, and it had not requested enhanced
reimbursement. The State agency said that it agreed that, in the future, it should work more
closely with CMS when extending contracts over $100,000 to ensure that CMS is aware of
contract changes.

OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency claimed contractor expenditures under a contract extension at the 75-percent
rate without obtaining CMS’s approval. Section 11275 of the Manual requires the State agency
to obtain CMS’s approval for claiming Federal reimbursement at the 75-percent rate for system
maintenance expenditures if the thresholds in 45 CFR § 95.611 are exceeded. Section 11110 J.
of the Manual states that Federal reimbursement of “… 75 percent … is provided as enhanced
funding for MMIS expenditures ….”




                                               9
APPENDIX
                                                                                          Page 1 of 4


  APPENDIX: DEPARTMENT OF HUMAN SERVICES COMMENTS 





                                       Office of the Director
John A. Kitzhber, MD, Governor                                              500 Summer SI. NE
                                                                              Salem, OR 97301

          July 14,2011



          Ms. Lori A Ahlstrand
          Regional Inspector General for Audit SClvices
          Department of Health and Human Services
          Office of the Inspector General, Region IX
          90 - 71h Street, Suite 3-650
          San Francisco, CA 94103

          RE: RepOlt Number A-09- 10-020 17

          Dcar Ms. Ahlstrand:

          The Oregon Department of Human Services (DHS) and the Oregon Health
          Authority (OHA) appreciate the OPPOltUnity to respond to the u.s.
          Department of Health and Human Services, Office of Inspector General,
          draft report entitled Audit ofOregon's Medicaid Management ltiforrnation
          System Expendituresfor the Period Octoher I, 2007, Through September 30,
          2009.

          As you know. the Oregon Depsttment of I-iuman Services has recently
          reorganized, with a majority of the medical related services now residing in
          the Oregon Health Authority. Since the findings and recommendations in the
          draft report now apply lo both stale agencies, the agencies have prepared the
          below joint response.

          Recommendation:                                         .
          We recommend that the State agency(s) refund $565,727 to the Federal
          Govemment for expenditures claimed at incorrect reimbursement rates
          ($154,729 Federal share) and for the expenditures not allowable for
          Medicaid reimbursement ($410.998 Federal share).
                                                                                            Page 2 of 4




Ms. Lori A Ahlstrand
Office of the inspector General, Region IX
Page 2


         Response: 

         The State agencies partially concur with the reconunendation. 


         The agencies agree with tbe findings related to the employee salaries. We 

         believe the disallowed amount indicated for employee salaries ($1 04, 143) 

         was a result of differing interpretations ofllie Medicaid manual, section 

         11276 (07-98) and in the case ofthc employee with no Medicaid duties 

         (resulting in the disallowed amount of$15,384), simple administrative error. 

         Aligning the somewhat dated duties/functions specified in the Medicaid 

         manual to those in the current MMlS operational envirOlllncnt docs .induce 

         an element of error resulting from individual interpretation. After a thorough 

         review, the agencies agree to refund the disallowed amounts listed ahove 

         and requests that eMS work with the agencies to develop written definitions 

         and procedures that better align with our current duties/functions contained 

         within each applicable position description. 


         The agencies agree with tbe Onding tbal the incorrect federal match rate was 

         applied to the First Health Services Corporation (PBM Help Desk) operation 

         expendirures. The agencies will make the $46,097 overpayment adjustment 

         identified in the finding. Going forward, the agencies believe that some of 

         these services with our new contractor will qualifY for the 75-percent match 

         rate. We will discuss this issue with eMS. Based on this discussion, we 

         will make any appropriate adjustments to our expenditures going forward. 

         We will also modifY our existing contract with HP to reflect the outcome of 

         this discussion. 


         The agencies also agree with the finding that the incorrect federal'match rate 

         was applied to expenditures for postage. The agencies will make the $4,489 

         overpayment adjustment for this administrative error. 


         The agencies disagree with the finding rclated to thc contract extension for 

         the Decision Support/Surveillance and Utilization Review system 

         (DSSURs). The finding notes that the State should have pursued pre­

         approval [or extension of the ACS contract to support the DSSURs. The 

         ACS supported DSSURs was not under an APD for Design, Development 

         and Implementation (000, but rather was in Operations and Maintenance 

         (0 and M) since December 1,2003. The State extended the 0 and M 

         contract for the ACS supported DSSlffis during the stabilization phase of 

                                                                                       Page 3 of 4




Ms. Lori A Ahlstrand
Office of the Inspector General, Region IX
Page)


        tbe new HP provided MMlS which included a new DSSURs. While it' s the
        State's belief that a contract extension under Operations and Maintenance
        docs not require an APD, because we were not requesting enhanced funding,
        the State agrees that in the future we should work more closely with eMS
        when extending contracts over $1 00,000 to ensure eMS is aware of contract
        changes even wht:n they are not covered under an open APD.

        Recommendation:
        We recommend that the State agcncy(s) work with eMS to determine which
        portions of the $1 ,741 ,857 that we set aside were calculated using correct
        reimbursement rates and were for allowable Medicaid activities and refund
        to the Federal Government the amounts Ihat were overpaid.

        Response: 

        The Slate agencies concur with the recommendation. 


        We are eager to partner witb CMS to resolve these questioned charges. In
        doing so, the agencies anticipate devcloping and documenting for future
        reference up-to-date definitions and procedurcs that bcttcr align with our
        current MMlS operational duties/functions to reduce the element of human­
        interpretation cl'ror while capturing the correct funding amounts now and
        into the future .

        Thc agencies will also work with our AAA partners and CMS to dctcrminc
        the appropriatc ratio of contractor time related to the operation of the
        auxiliary subsystems of the previously approved MMlS and the replacement
        MMlS.

        Recommendation: _
        We recommend that the State agency(s) strengthen inlema1 controls to
        ensure that its MMlS expenditures arc claimed at correct reimbursement
        rates and are allowable for Medicaid reimbursemcnt.

        Response: 

        The State agencies concur with the recommendation. 

                                                                                          Page 4 of 4




Ms. Lori A Ahlstrand
Office of the Inspector General, Region IX
Page 4


        As stated previously, we afe eager to collaborate with eMS to clearly de fine
        the starr duties/functions that quali fy for enhanced rates from the ones who
        do not. Often, these can be difficull to determine because work performed at
        the individual level arc often comprised of both qualifying and non­
        qualifying enhanced ratc duties/functions. The desired solution would be one
        that used our current written position descriptions to identifY the duties that
        do quality for enhanced funding rates and include the percentage or the time
        the worker performs these duties as part of the calculation. Using this, or a
        similar methodology, the desired goals of both eMS and the agencies will be
        achieved.

        Using the guidance gained from our discussions with CMS, we w ill make
        the necessary adj ustments to the staff and contracted expenditurcs for
        periods after September 30,2009. We w il l also explore opportunities to
        improve the review and monitoring of our contracted and business related
        expenditures to beUer identify match rate and other detaiJed issues when
        transitioning to new information technology platforms.

        Thank you again for this opportunity to re~pond to the draft Audit of
        Oregon's Medicaid Management In/ormation System ExpendituresJhr the
        Period October 1,2007, Through September 30,2009. If you have any
        questions or concerns regarding responses from DHS and OHA, please
        contact Dave Lyda, Chief Audit Officer at 503~945-6700 or through email at
        dave.m.lyda@slale.or.us.

        Sincerely,




        !Jim Scherzinger!                             !Suzanne Hoffman!
        Jim Scherzinger                               Suzanne Hoffman
        DHS Chief Operating Officer                   OHA Chief Operating Officer
